September 2005
Report No. 05-037


Controls Over the
Risk-Related Premium System




             AUDIT REPORT
                                                                                       Report No. 05-037
                                                                                         September 2005

                                    Controls Over the Risk-Related Premium System

                                    Results of Audit

                                    We concluded that the management, operational, and technical controls for the
Background and                      RRPS provide reasonable assurance of adequate security. The confidentiality,
Purpose of Audit                    integrity, and availability of the system and associated data were maintained
                                    through a combination of sound controls including:
The Risk-Related Premium                 • risk assessments and security reviews,
System (RRPS) is the FDIC’s              • logical access controls,
system of record for the risk            • data integrity edit checks, and
assessment classification of             • business continuity planning.
financial institutions. The
RRPS contains examination and       In addition, the FDIC has developed a certification and accreditation (C&A)
supervisory action information      process to validate that the security controls implemented in an information
that is considered highly
sensitive and is not available to
                                    system are commensurate with risks throughout the FDIC’s computing
the public. The insurance           environment. In August 2005, the FDIC started the C&A for the RRPS, which
premium assessed to each            includes extensive testing of the key management, operational, and technical
institution is based on the         controls.
balance of insured deposits held
during the preceding two            Although key application controls generally operated as intended, we identified
quarters and on the degree of       the following deficiencies:
risk the institution poses to the       • the RRPS security plan did not fully and accurately describe the current
Bank Insurance Fund or the                   management, operational, and technical controls;
Savings Association Insurance
Fund. The FDIC uses a risk-
                                        • a software configuration management (SCM) plan was not fully
based premium system that                    developed or implemented; and
assesses higher rates on those          • read and write access rights of RRPS users were not periodically
institutions that pose greater               reviewed.
risks to the insurance fund.
                                    These deficiencies posed the following risks to the RRPS:
The RRPS calculates assessment
rates based on data from such           • not all appropriate security controls for RRPS have been considered and
sources as the institutions’ Call           implemented,
Reports; Thrift Financial               • improper and/or unauthorized software changes could be made to RRPS,
Reports; examination data from              and
the FDIC, Office of the                 • RRPS data could be changed or improperly disclosed by individuals who
Comptroller of the Currency,                no longer need RRPS read and write capabilities.
Federal Reserve Board, and
Office of Thrift Supervision;
                                    Collectively, these deficiencies pose risks to the confidentiality, integrity, and
and input from FDIC personnel.
                                    availability of the RRPS; however, the risks are at least partially mitigated by the
The audit objective was to          ongoing C&A process.
determine whether the RRPS
application provides the            Recommendations
appropriate level of
confidentiality, data integrity,    We recommended that the FDIC:
and availability through the use
                                     • correct identified deficiencies in and approve the updated RRPS security
of effective management,
operational, and technical               plan,
controls.                            • develop and implement an SCM plan for RRPS, and
                                     • conduct semiannual reviews of all RRPS user access rights.
To view the full report, go to
www.fdicig.gov/2005reports.asp
                                    FDIC management agreed with the recommendations and has taken actions to
                                    address them.
                             TABLE OF CONTENTS

BACKGROUND                                                                 1

RESULTS OF AUDIT                                                           3

FINDINGS AND RECOMMENDATIONS                                               5

FINDING A: SECURITY PLAN                                                   5
     RECOMMENDATION                                                        8
     CORPORATION COMMENTS AND OIG EVALUATION                               8

FINDING B: SOFTWARE CONFIGURATION MANAGEMENT                               8
     RECOMMENDATION                                                       11
     CORPORATION COMMENTS AND OIG EVALUATION                              11

FINDING C: ACCESS REVIEWS                                                 11
     RECOMMENDATION                                                       12
     CORPORATION COMMENTS AND OIG EVALUATION                              13

APPENDIXES

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                             14
APPENDIX II: RRPS SYSTEM OVERVIEW                                         16
APPENDIX III: DATA INTEGRITY TESTS                                        17
APPENDIX IV: SCM PLAN ELEMENTS AS DESCRIBED IN THE                        18
SOFTWARE CONFIGURATION MANAGEMENT GUIDEBOOK
APPENDIX V: CORPORATION COMMENTS                                          20
APPENDIX VI: MANAGEMENT RESPONSE TO RECOMMENDATIONS                       24

TABLES

Table 1: Coverage of Elements in the RRPS Security Plan                    5
Table 2: SCM Plan Elements Not Addressed in the RRPS Maintenance Manual    9
Table 3: Access Reviews by DSC Regional Managers                          11
Federal Deposit Insurance Corporation                                                                    Office of Audits
801 17th Street NW, Washington, DC 20434                                                    Office of Inspector General

DATE:                                  September 23, 2005

MEMORANDUM TO:                         Arthur J. Murton, Director
                                       Division of Insurance and Research

                                       Michael E. Bartell
                                       Chief Information Officer and
                                       Director, Division of Information Technology



FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               Controls Over the Risk-Related Premium System
                                       (Report No. 05-037)

This report presents the results of the Federal Deposit Insurance Corporation (FDIC) Office of
Inspector General’s (OIG) audit of system controls over the Risk-Related Premium System
(RRPS). The RRPS, a major application,1 is the FDIC’s system of record for the risk assessment
classification of financial institutions and is housed in the FDIC’s Virtual Supervisory
Information on the Net (ViSION) Application.2 The RRPS contains examination and
supervisory action information that is considered highly sensitive and is not available to the
public. The objective of this audit was to determine whether the RRPS application provides the
appropriate level of confidentiality, integrity, and availability through the use of effective
management, operational, and technical controls. Appendix I describes in detail our objective,
scope, and methodology.

BACKGROUND

The FDIC maintains the Bank Insurance Fund (BIF) and the Savings Association Insurance Fund
(SAIF) by assessing depository institutions an insurance premium twice a year. The premium
amount is based on the balance of assessable deposits held during the preceding two quarters and
on the degree of risk the institution poses to the insurance fund. The FDIC’s risk-based premium
system assesses higher rates for institutions that pose greater risks to the BIF or SAIF. To
assess premiums, the FDIC places each institution in one of nine risk categories using a two-step
process based first on capital ratios and second on other relevant information such as the
results of:
              •    the last examination by the primary federal regulator;

1
  OMB Circular A-130, Appendix III, defines a major application as one that requires special attention to
security due to the risk and magnitude of harm resulting from the loss, misuse, or unauthorized access to, or
modification of, the information in the application. The FDIC has designated seven applications, including the
RRPS, as major applications.
2
  ViSION is an FDIC major application and mission-critical system that provides access to financial, examination,
and supervisory information on financial institutions.
               •   independent, joint,3 or concurrent FDIC examinations; and
               •   off-site statistical analysis of reported financial statements.

The RRPS calculates assessment rates based on data from such sources as Call Reports; Thrift
Financial Reports; examination data from the FDIC, Office of the Comptroller of the Currency
(OCC), Federal Reserve Board (FRB), and Office of Thrift Supervision (OTS); and input from
FDIC personnel. In accordance with guidelines approved by the FDIC Board of Directors, the
Division of Insurance and Research (DIR) uses this information to determine the assessment rate
for each institution. Appendix II contains an overview of the RRPS.

DIR performs the assessment process twice a year. During this process, DIR assigns and updates
the assessment risk classifications for all financial institutions. The financial institutions receive
quarterly assessments based on the assessment ratings. At the completion of each assessment
period, DIR meets with the Division of Information Technology (DIT) to discuss RRPS changes
that may be needed as a result of possible revised legislative requirements or new system
capabilities. When system changes are made, the RRPS is retested prior to the next assessment
period. DIR is responsible for the RRPS; however, the Division of Supervision and Consumer
Protection (DSC) has the majority of RRPS users (about 2,000).

Application Control Guidance

The Federal Information Security Management Act of 2002 (FISMA), Public Law 107-347,
requires each federal agency to develop, document, and implement an agency-wide information
security program to provide security for the information and information systems that support the
operations and assets of the agency, including those provided or managed by another agency,
contractor, or other sources. Under FISMA, the National Institute of Standards and Technology
(NIST) is responsible for developing standards and guidelines, including minimum requirements,
for providing adequate information security for federal agency operations and assets. NIST
issued Special Publication (SP) 800-53, Recommended Security Controls for Federal
Information Systems, which states that security controls are the management, operational, and
technical safeguards and countermeasures prescribed for an information system which, taken
together, should adequately protect the confidentiality, integrity, and availability of the system
and its information. SP 800-53 defines these security controls as follows.

      •    Management controls focus on the management of risk and the management of
           information system security. These controls address: (1) risk assessment; (2) security
           planning; (3) acquisition of information systems and services; and (4) certification,
           accreditation, and security assessments.

      •    Operational controls are primarily implemented and executed by people (as opposed to
           systems). These controls address: (1) personnel security, (2) physical and environmental
           protection, (3) contingency planning and operations, (4) configuration management,
           (5) hardware and software maintenance, (6) system and information integrity, (7) media
           protection, (8) incident response, and (9) security awareness and training.

3
    An examination performed by both the FDIC and another federal or state regulatory agency.


                                                          2
      •    Technical controls are primarily implemented and executed by the information system
           through mechanisms contained in the hardware, software, or firmware4 components of
           the system. These controls address: (1) user identification and authentication, (2) logical
           access control, (3) audit and accountability, and (4) system and communications
           protection.

System Certification and Accreditation (C&A)

NIST 800-37, Guide for the Security Certification and Accreditation of Federal Information
Systems, states that agency officials must have the most complete, accurate, and trustworthy
information possible on the security status of their information systems in order to make timely,
credible, risk-based decisions regarding whether to authorize operation of those systems. The
information and supporting evidence needed for security accreditation are developed during a
detailed security review of an information system, typically referred to as security certification.
Security certification is a comprehensive assessment of the management, operational, and
technical security controls in an information system, made in support of security accreditation, to
determine the extent to which the controls are implemented correctly, operating as intended, and
producing the desired outcome with respect to meeting the security requirements for the system.
The results of a security certification are used to reassess the risks and update the system security
plan, thus providing the factual basis for an authorizing official to render a security accreditation
decision. The steps performed in the C&A process are dependent on the level of risk defined as
low-, moderate-, or high-impact in an operating system.

The FDIC has developed a C&A process to validate that the security controls implemented in an
information system are commensurate with the risks throughout the FDIC computing
environment. In July 2004, the FDIC performed a low-impact C&A for the RRPS which,
according to NIST guidance, entails only a documentation review of the controls. Beginning in
2005, the FDIC planned to perform a moderate-impact C&A, which includes extensive testing of
key management, operational, and technical controls, for all of its major systems, including the
RRPS. The C&A for the RRPS began in August and will be completed by December 2005.


RESULTS OF AUDIT

The management, operational, and technical controls for RRPS provide reasonable assurance of
adequate security. The confidentiality, integrity, and availability of the system and associated
data were maintained through a combination of sound controls, including:
    • risk assessments and security reviews,
    • logical access,
    • data integrity edit checks (details are provided in Appendix III), and
    • business continuity planning.




4
    Firmware is hardware that includes embedded software, i.e., a read-only or programmable read-only memory chip.


                                                         3
Although key application controls generally operated as intended, we identified the following
deficiencies in the security plan, software configuration management, and access reviews that
could affect the security of the RRPS.
.
    • The security plan did not fully and accurately describe the current management,
        operational, and technical controls (Finding A).
    • A software configuration management (SCM) plan was not fully developed or
        implemented (Finding B).
    • RRPS users’ read and edit access rights were not periodically reviewed (Finding C).

As a result of these deficiencies, the RRPS is exposed to the following risks:

    •   Not all appropriate security controls for RRPS have been considered and implemented.
    •   Improper and/or unauthorized software changes could be made to RRPS.
    •   RRPS data could be changed or improperly disclosed by individuals who no longer need
        read and edit capabilities.

Collectively, these deficiencies pose risks to the confidentiality, integrity, and availability of the
RRPS; however, the risks are at least partially mitigated by the ongoing C&A process.




                                                   4
                           FINDINGS AND RECOMMENDATIONS

FINDING A: SECURITY PLAN

Condition: The RRPS security plan, dated March 29, 2005, adequately addressed the RRPS
system security controls. However, some of the plan’s elements need to be more fully explained.
The results of our assessment of the RRPS security plan based on NIST SP 800-18, Guide for
Developing Security Plans for Information Technology Systems, are summarized in Table 1.

Table 1: Coverage of Elements in the RRPS Security Plan
Security Plan       NIST SP 800-18 Requirements                                  Exceptions
Section
System Identification   System Name/Title, Information Contacts, Assignment      None
                        of Security Responsibility, System Operational Status,
                        General Description/Purpose, System Environment,
                        System Interconnection/Information Sharing,
                        Applicable Laws or Regulations Affecting the System,
                        General Description of Information Sensitivity
Management Controls     Risk Assessment and Management                           The plan does not provide information
                                                                                 on where and how to obtain the most
                                                                                 recent Risk Assessment Report.
                        Review of Security Controls                              None
                        Rules of Behavior                                        The plan does not specify a
                                                                                 requirement to provide users with a
                                                                                 copy of the Rules of Behavior prior to
                                                                                 obtaining access to RRPS.
                        Planning for Security in the Life Cycle                  The plan does not describe disposal
                                                                                 requirements for system termination
                                                                                 such as procedures on how
                                                                                 information would be archived,
                                                                                 cleared, or purged from the RRPS.
                        Authorize Processing                                     None
Operational Controls    Personnel Security                                       The plan does not indicate the
                                                                                 sensitivity level (low, medium, and
                                                                                 high) designations for DIT contractor
                                                                                 personnel involved in RRPS
                                                                                 maintenance and technical support.

                                                                                 The plan does not specify termination
                                                                                 procedures for users in adverse
                                                                                 situations.

                                                                                 Note: FDIC Circular 1360.15, Access
                                                                                 Control for Automated Information
                                                                                 Systems, is referenced as containing
                                                                                 procedures for reviewing user access.
                                                                                 The reviews have not been performed
                                                                                 (see Finding C).
                        Physical and Environmental Protection                    None
                        Production, Input/Output Controls                        Although the plan indicates that
                                                                                 specific electronic processing
                                                                                 procedures have been established to




                                                      5
Security Plan          NIST SP 800-18 Requirements                      Exceptions
Section
                                                                        handle data and media from external
                                                                        agencies, no information is included
                                                                        on where and how to obtain these
                                                                        procedures.

                                                                        Labeling the data sensitivity (e.g.,
                                                                        Privacy Act or proprietary data) of
                                                                        printed output is not addressed.
                       Contingency Planning                             None
                       Application Software Maintenance Controls        The plan does not require that a
                                                                        Configuration Management Plan be
                                                                        developed and implemented as
                                                                        required by FDIC Circular 1320.4,
                                                                        FDIC Software Configuration
                                                                        Management Policy (see Finding B).

                                                                        The plan does not address migration
                                                                        procedures (i.e., movement of the
                                                                        software through the development
                                                                        stage to the test stage to the
                                                                        production stage) to prevent using
                                                                        incorrect versions of software.
                       Data Integrity/Validation Controls               None
                       Documentation                                    None
                       Security Awareness and Training                  None
Technical Controls     Identification and Authentication                None
                       Logical Access Controls                          None
                       Public Access Controls                           None
                       Audit Trails                                     None


During our fieldwork, we provided DIR with the security plan exceptions noted in this report.
The ISM, in coordination with DIT personnel, immediately began addressing our concerns.

Cause: The deficiencies noted in the RRPS security plan were similar to those identified in a
previous Independent Security Review conducted in 2003. The DIR Information Security
Manager (ISM) responsible for RRPS did not verify and ensure that all of the previously
identified deficiencies had been corrected before the March 29, 2005 security plan was approved.

Criteria: A security plan for an information system helps to ensure that agreed-upon security
controls planned or in place are fully documented. In addition, the security plan provides a
complete description of the information system, including supporting documentation such as the
key documents that support an organization’s information security program. Office of
Management and Budget (OMB) Circular A-130, Appendix III, requires that agencies prepare
security plans for their general support systems and major applications. OMB outlines the
minimum controls that must be described in system and application security plans and requires that
security plans comply with NIST standards.




                                                     6
NIST SP 800-18 states that the purposes of system security plans are (1) to provide an overview
of the security requirements of the system and description of the controls in place or planned that
meet those requirements and (2) to delineate the responsibilities and expected behavior of all
individuals who access the system.

NIST SP 800-53, control number PL-1, Security Planning Policy and Procedures, states that the
organization develops, disseminates, and periodically reviews/updates: (1) a formal,
documented, security planning policy that addresses purpose, scope, roles, responsibilities, and
compliance; and (2) formal documented procedures to facilitate the implementation of the
security planning policy and associated security planning controls. Further, SP 800-53, control
number PL-3, System Security Plan Update, states that the organization should review the
security plan for the information system to address system/organizational changes or problems
identified during the plan implementation or security control assessments.

NIST SP 800-37 states that security plans should be updated and approved prior to the
assessment of security controls during the C&A process.

FDIC Circular 1310.3, Information Technology Security Risk Management Program, dated
July 6, 2005, states that the divisional program manager is responsible for preparing a security
plan that documents the management, operational, and technical security controls intended to
protect information assets. The circular incorporates guidance included in NIST publications.

Effect: The RRPS security plan does not fully address the requirements described in NIST
SP 800-18. Therefore, there is a risk that not all appropriate security controls for RRPS have
been considered and implemented to protect the confidentiality, integrity, and availability of the
system and the data it processes. The deficiencies we identified in the security plan could result
in the following:
    • The most current risk assessment may not be used to mitigate security risks if there is no
        reference to the location and date of the latest risk assessment performed. Consequently,
        the wrong set of risks could be mitigated, or the high risks may not be addressed.
    • New users may not be aware of their security responsibilities when accessing RRPS if
        they are not provided with the Rules of Behavior prior to receiving system access. User
        awareness training, which includes the Rules of Behavior, is given only once a year.
    • Sensitive information in RRPS could be exposed to unauthorized access at the end of the
        system life cycle if disposal requirements are not defined and planned.
    • Risk of unauthorized activities could increase if the appropriate level of screening of the
        contractor personnel involved in system maintenance and technical support is not
        performed because position sensitivity levels (low, medium, and high) have not been
        designated.
    • Risk of unauthorized activities of disgruntled employees could increase if termination
        procedures for users under adverse situations are not readily identified and available.
    • Risk of improper disclosure of sensitive data could increase if procedures for handling
        the receipt of sensitive data and media from external agencies are not readily identified
        and available.




                                                 7
   •   Risk of unauthorized disclosure of sensitive information (e.g., Privacy Act or proprietary
       data) could increase if there is no requirement to properly label the sensitivity level of
       printed output data.
   •   Risk of errors and omissions from incorrect versions of software placed into production
       could increase if formal migration procedures (development to test to production
       procedures) are not readily identified and available.

The risks posed by the deficiencies in the security plan are heightened because of the changing
control environment affecting RRPS. As a result of the FDIC’s reorganization and
transformation, key RRPS personnel have departed, and the status of the remaining personnel
and contractors is uncertain. Keeping policies, procedures, and system documentation as current
and complete as possible is critical in ensuring the adequacy of controls for system operations in
a changing environment.

RECOMMENDATION

(1) We recommend that the Director, DIR, correct the deficiencies in and approve the updated
RRPS security plan.

CORPORATION COMMENTS AND OIG EVALUATION

On September 13, 2005, the Director, DIR, provided a written response that is presented in its
entirety in Appendix V of this report. DIR agreed with the recommendation and provided a copy
of the revised security plan. The revised security plan adequately addressed the deficiencies
summarized in Table 1 of this report. DIR also indicated that the security plan will be modified
when: (1) NIST or OMB update requirements for major application security plans, (2) RRPS
application controls or procedures are modified, and/or (3) internal reviews or external security
audits require modifications. The security plan is expected to be approved by October 14, 2005.

The actions taken and planned by management are responsive to the recommendation. The
recommendation is resolved but will remain undispositioned and open until we have determined
that agreed-to corrective action has been completed and is effective.

FINDING B: SOFTWARE CONFIGURATION MANAGEMENT

Condition: The RRPS project team did not develop an SCM plan in accordance with FDIC and
NIST guidelines. Specifically, the RRPS Project Team did not develop an SCM plan in
accordance with the FDIC’s SCM plan guidance.

The March 29, 2005 RRPS security plan referenced the RRPS Maintenance Manual, dated
November 2002, as the source for maintaining and updating software configuration. The
Maintenance Manual contains project documentation references, points of contact, system
description, and the process for handling change requests. However, as indicated in Table 2 on
the next page, the Maintenance Manual does not adequately address required plan elements




                                                8
specified in FDIC guidelines. Appendix IV provides a detailed description of the SCM plan
elements as described in the FDIC’s Software Configuration Management Guidebook, dated
July 22, 2003.

Table 2: SCM Plan Elements Not Addressed in the RRPS Maintenance Manual

    SCM Plan Element                           Plan Requirements

    CM Organization                            Roles and Responsibilities
                                               (Includes only names of contacts)
                                               Tools/Environment
                                               Training

    Configuration Identification               Identification Methods

    Configuration and Change Control           CM Repository
                                               View and Branch Management
                                               Project Baselines
                                               Document Processing and Approval
                                               Change Request Processing and Approval
                                               (Focus was on the form of the request)
                                               Change Control Board
                                               Release Process

    Status Accounting                          Reports

    Configuration Evaluations                  Physical Configuration Audit
                                               Functional Configuration Audit
                                               Milestones
                                               Subcontractor and Vendor Software Control

The RRPS Project Team is using two SCM tools in the absence of a formal SCM plan--StarTeam
for the software residing on the servers and Endevor for the software residing on the mainframe.5
However, only two StarTeam capabilities had been implemented at the time of our review--
software documentation and a change request facility. The following key StarTeam capabilities
have not been implemented:

      • software release comparison with date/time stamp;
      • change tracking and traceability;
      • file locking to prevent simultaneous access between users;
      • workflow control for approval process; and
      • rollback to previous software version.

Key features of Endevor have been implemented to control changes and access to the RRPS
software residing on the mainframe.


5
 RRPS is considered a client/server application. The functions of client/server applications are distributed between
different computer platforms such as servers and the mainframe.


                                                         9
Cause: The RRPS Project Team indicated that factors such as the recent DIT reorganization and
contract consolidation efforts affected the completion of the SCM plan for RRPS. As a result,
work on both the SCM plan and StarTeam implementation was delayed until June 2005.

Criteria: An SCM program ensures that the integrity of the system software is maintained
during a system’s life cycle. Key components of an SCM program include developing an SCM
plan and using automated tools to track and control software changes.

NIST SP 800-53, CM-2, Baseline Configuration, calls for organizations to develop, document,
and maintain a current baseline configuration of an information system and an inventory of the
system’s constituent components. CM-2 also indicates that an organization should update the
baseline configuration as an integral part of information system component installations and
should employ automated mechanisms to maintain an up-to-date, complete, accurate, and readily
available baseline configuration. CM-3, Configuration Change Control, states that an
organization should document and control changes to an information system. Information
system changes should be approved by appropriate organizational officials in accordance with
organizational policies and procedures.

FDIC Circular 1320.4, FDIC Software Configuration Management Policy, dated July 8, 2003,
states that an SCM plan should be developed and implemented for all applications no later than
December 31, 2003. The circular includes specific responsibilities and guidance for preparing
and implementing the plan. The system development representative (project manager) is
responsible for preparing the SCM plan. The circular requires that application SCM plans and
SCM tools comply with the procedures described in the Software Configuration Management
Guidebook, dated July 22, 2003.

Effect: DIT recently completed an organizational transformation that resulted in consolidating
the number of application support contractors. The current RRPS contractor was not named as
one of the four remaining contractors. As a result, the current contractor may not be supporting
RRPS in the future. In addition, DIT has downsized and has lost many personnel, including an
FDIC RRPS project manager. To facilitate the reassignment of responsibilities, current and
explicit RRPS software configuration management processes must be in place to ensure that
system documentation and SCM procedures are understood by new FDIC or contractor
personnel.

Without an SCM plan, the RRPS could be exposed to unauthorized changes, errors, and
omissions that could damage critical data and cause system failures. More specifically, without
implementing StarTeam, which contains key features needed for controlling software changes,
the RRPS could experience the following:

   •   errors from changes made to the wrong versions of the software,
   •   an inability to trace change requests for problem resolution and/or verification that
       changes met requirements,
   •   an inability to prevent simultaneous updates to one file,
   •   errors from incorrect processing of approved changes, and
   •   an inability to revert to a previous software version in the event of a serious error.


                                                10
RECOMMENDATION

(2) We recommend that the Director, DIT, develop and implement an SCM plan for RRPS that
incorporates the appropriate features of StarTeam.

CORPORATION COMMENTS AND OIG EVALUATION

On September 18, 2005, the Director, DIT, provided a written response to the draft report that is
presented in Appendix VI of this report. DIT agreed with the recommendation and stated that
the SCM plan template was changed on July 29, 2005. DIT has drafted a new RRPS SCM plan
using the updated template. In addition, four of the five StarTeam capabilities identified in the
audit will be activated in StarTeam and included in the SCM plan for RRPS. A separate
document addressing the workflow control for the approval process will be prepared.

The actions taken and planned by management are responsive to the recommendation. The
recommendation is resolved but will remain undispositioned and open until we have determined
that agreed-to corrective actions have been completed and are effective.

FINDING C: ACCESS REVIEWS

Condition: The ISM responsible for RRPS reviewed access rights for 21 system administrators
involved in the development and production of mainframe applications. However, the ISM did
not periodically review the access rights for the majority of RRPS users. DSC has about 2,000
users, and at least 465 users had both read and edit capabilities. During the audit, we asked DSC
Regional Managers to review their staffs’ continued need for read and edit capabilities for the
RPPS. The feedback we received from 5 DSC regional offices indicated that 75 of the 465 users
no longer required the edit capability. The results indicated that 72 of the 75 users no longer
needed access because of role changes and that 3 users were no longer employed at the FDIC.
The access reviews by DSC Regional Managers are summarized in Table 3.

Table 3: Access Reviews by DSC Regional Managers
Region             Users with Read/Edit Access Rights             Users Who No Longer Need Read/Edit Access
Atlanta                                 82                                               2
Dallas                                  122                                             23
San Francisco                           81                                              24
Kansas City                             93                                               7
New York                                87                                              19
Total                                  465*                                            75*
*The total does not include the Chicago Region because the requested information was not provided. We did not
examine the need for the read-only capability in this audit.

Cause: DIR’s ISM had not established the roles, responsibilities, and procedures for performing
periodic access reviews of RRPS users as required by FDIC Circular 1360.15 and the RRPS
security plan.

Criteria: User access to the RRPS should be granted based on the user’s need to perform
assigned duties and should be terminated when no longer required. NIST SP 800-53 states that



                                                     11
an effective information security program should include periodic assessments of risk, including
the magnitude of harm that could result from the unauthorized access, use, disclosure, disruption,
modification, or destruction of information and information systems that support the operations
and assets of an organization. Also, SP 800-53, PS-5, Personnel Transfer, states that an
organization should review access authorizations when individuals are reassigned or transferred
to other positions within the organization and should initiate appropriate actions such as closing
old accounts, establishing new accounts, and changing system access authorization. SP 800-53,
PS-4, Personnel Termination, states that an organization should terminate system access when
employment is terminated.

FDIC Circular 1360.15, Access Control for Automated Information Systems, requires the ISM to
review the assignment of user rights to sensitive information systems within his/her specific
division or office. The RRPS security plan states that the ISM should review RRPS user access
rights semiannually to determine whether users need them to perform their responsibilities.

Effect: Without periodic reviews of users’ access rights, there is a risk that improper disclosure
and/or unauthorized changes to RRPS data could be made by individuals no longer needing the
read/edit capability. However, this access risk has been mitigated because: (1) DSC users’ read
and edit access is limited to the banks assigned to their respective Case Managers;6 (2) Case
Managers are required to manually record any changes that are made and to provide comments
in the RRPS about the changes; and (3) after the caseload7 is reconciled, the Case Managers send
the hardcopy logs and management reports semiannually to the Assistant Regional Director for
approval.

RECOMMENDATION

(3) We recommend that the Director, DIR, establish roles, responsibilities, and procedures for
conducting periodic reviews of all RRPS user access rights as required by FDIC Circular
1360.15 and the RRPS security plan.




6
  A Case Manager performs activities related to the review, analysis, and processing of reports of examination,
applications, investigations, and other correspondence involving their caseloads. The primary responsibilities of
Case Managers involve assessing risk to the deposit insurance fund and directing the appropriate supervisory efforts
to eliminate or manage such risk.
7
  A caseload may consist of organizations that have operations extending beyond the geographic boundaries of the
region to which Case Managers are assigned. Regardless of geographic location, Case Managers will be the
principal supervisory contact for the FDIC's regulatory oversight activities for the banking operations of institutions
assigned to their caseloads.


                                                          12
CORPORATION COMMENTS AND OIG EVALUATION

DIR agreed with the recommendation and provided a copy of the procedures in the revised
security plan. The revised security plan included the roles, responsibilities, and procedures for
conducting periodic reviews of all RRPS user access rights. As stated earlier, the security plan is
expected to be approved by October 14, 2005.

Management’s planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective action has been completed and is effective.




                                                13
                                                                                                APPENDIX I

                          OBJECTIVE, SCOPE, AND METHODOLOGY
Objective

The audit objective was to determine whether the RRPS application provided an appropriate
level of confidentiality, integrity, and availability through the use of cost-effective management,
personnel, operational, and technical controls.

Scope

This audit is one of three audits being performed as part of an overall review of the RRPS
process. The results of the other audits, Audit of FDIC Assessments and Designated Reserve
Ratio Determinations (Assignment No. 2005-032) and Audit of the FDIC’s Risk-Related
Insurance Premium System (Assignment No. 2005-033), will be issued in separate reports. This
audit covered the period from January 1, 2005 through June 30, 2005 and included the data
upload for the financial institutions’ December 31, 2004 Call Reports.

Methodology

To accomplish our objective, we determined whether the input, output, and processing controls
minimized the risks of errors, omissions, and unauthorized access. Specifically, we:

    •   Obtained and reviewed documentation in support of the system development life cycle
        for RRPS.
    •   Obtained, through interviews and observation, an overview of the RRPS application and
        interfacing systems.
    •   Performed an analysis of RRPS user access accounts.
    •   Interviewed DSC, DIR, and DIT staff responsible for authorizing RRPS and ViSION
        access through the FDIC Intranet.
    •   Reviewed policies, procedures, and documentation relating to user access and account
        maintenance.
    •   Reviewed the FDIC’s policies, procedures, and practices relating to application security
        training for RRPS.
    •   Reviewed SCM policies, procedures, and practices and interviewed DIT and contractor
        staff regarding the SCM tools and processes used by the RRPS system developers.
    •   Selected a random sample of 43 institutions and compared the RRPS assessment data that
        was modified during the July 2004 assessment period to the assessment data used by
        AIMS II8 in order to determine the accuracy and completeness of the safety and
        soundness and capital group data used in computing quarterly assessments.
    •   Compared the institutional data provided by the FRB, OCC, and OTS for the July 2005
        assessment period with the institutional data in the RRPS Universe database to determine
        the completeness of the external data input process.

8
 Assessments Invoicing Management System II (AIMS II) invoices financial institutions quarterly for insurance
premiums assessed to maintain the BIF and SAIF.


                                                       14
                                                                                    APPENDIX I

   •   Reviewed RRPS security plan and supporting documentation.
   •   Reviewed the March 2005 user satisfaction survey of 52 respondents to determine
       whether RRPS was meeting user needs.

We performed audit work in DIR’s Washington, D.C., office and DIT’s Virginia Square office.
We performed the audit from April through July 2005 in accordance with generally accepted
government auditing standards.

Internal Controls

We performed an assessment of the RRPS internal controls, including the control environment,
risk assessment, control activities, information and communications, and application monitoring.
As discussed in the audit report, we identified control weaknesses. Most significantly, as a result
of the FDIC’s restructuring and transformation activities, key FDIC and contractor personnel
have departed. This loss of continuity could have a negative impact on the control environment
and control activities. Keeping policies, procedures, and system documentation as current and
complete as possible is critical in ensuring the adequacy of controls for system operations in a
changing environment.

Performance Measures

In relation to the FDIC’s Insurance Program, the FDIC’s 2005 Annual Performance Plan states
that the RRPS will be enhanced consistent with the improvements that are implemented for the
ViSION application (which houses the RRPS). The RRPS has been enhanced and is undergoing
additional enhancements consistent with the performance goal in the 2005 plan.

Reliance on Computer-based Data

As part of our audit objective, we assessed the reliability of the data in the RRPS system.
Specifically, we compared the data in RRPS to the data received from external sources as part of
the data integrity tests performed (see Appendix III). We did not compare system data to
internal source data because that comparison was performed under another audit assignment.
For purposes of this audit, the data was sufficiently reliable to support our audit conclusions.




                                                15
                       APPENDIX II

RRPS SYSTEM OVERVIEW




         16
                                                                                                   APPENDIX III

                                        DATA INTEGRITY TESTS*

Tests                 Type of         Purpose            Method                       Results
                      Test
Ensure all records    Audit           Completeness       Combined files from          No issues. All records submitted
submitted by          Command                            regulators into a file and   by the regulators were included in
outside regulators    Language                           compared the “CERT”          the RRPS Universe List.
are included in the   (ACL)                              column with the
Universe List.                                           “CERT” column in the
                                                         RRPS Universe List.
Locate the blank      ACL             Completeness       Downloaded the               No issues. Found that 20 blank
“RL [Reconcile-                                          Reconcilement List from      cells out of 572 total cells were
ment List] Codes”                                        RRPS. Used ACL to            identified. These discrepancies
and determine why                                        calculate the number of      were resolved. Thirteen were
they are blank                                           blank cells.                 manually deleted because they
cells.                                                                                were “other insured branches” not
                                                                                      institutions. Seven institutions
                                                                                      were additions to the Reconcile-
                                                                                      ment List because a recent
                                                                                      examination may change the
                                                                                      supervisory rating. The 20 “RL
                                                                                      Code” cells were blank because
                                                                                      the institutions were not originally
                                                                                      listed on the Reconcilement List.
Ensure all records     ACL            Completeness      Filtered both lists to        No issues. Found eight
in the Reconcile-                                       discard duplicate             institutions on the Reconcilement
ment List are part                                      records. Compared the         List that were not on the Universe
of the Universe                                         “CERT” field in both          List. Institutions merged with
List.                                                   lists.                        other institutions.
Ensure that the        Code           Correctness of    Analyzed the logic of         No issue. COBOL code would
internal logic of      Review         Calculation       the latest version of the     correctly perform the calculations
RRPS ensures an                                         COBOL code in                 to determine an institution’s CG
institution is                                          determining an                as required by DIR policy.
assigned to the                                         institution’s CG.
correct Capital
Group (CG).
Ensure that the CG Data               Accuracy of       Matched a statistical         The data from all 43 institutions
and Supervisory        Matching       RRPS data         sample of 43 institutions were identical in RRPS and
Subgroup (SS)                         extracted by      to determine if the CG        AIMS II.
determined by the                     AIMS II to        and SS generated by
RRPS were                             calculate         RRPS were used by
extracted by                          institution       AIMS II for invoicing.
AIMS II.                              assessments
* The accuracy of the data input into RRPS was not tested as part of the data integrity tests in this audit because
(1) the other systems that RRPS obtains data from included built-in edit checks and (2) we are testing the accuracy
of data input into RRPS by DSC personnel as part of a separate, ongoing audit.




                                                          17
                                                                                              APPENDIX IV

                SCM PLAN ELEMENTS AS DESCRIBED IN THE SOFTWARE
                     CONFIGURATION MANAGEMENT GUIDEBOOK

                                   Plan Requirement
CM [configuration management]
Organization
Roles and Responsibilities         Identify who is responsible for configuration management.
Tools/Environment                  Identify the environment and software tools that will be used for
                                   configuration management throughout the application or product lifecycle.
Training                           Describe the training required to implement the configuration tools and
                                   procedures.
Configuration Identification
Identification Methods             Describe how configuration products are to be named, marked, and
                                   numbered. The identification scheme needs to cover hardware, system
                                   software, Commercial-Off-The-Shelf products, and all application
                                   development artifacts listed in the product directory structure such as plans,
                                   models, components, test software, results and data, executables, etc.

                                   Naming conventions for Endevor data sets should be described, if
                                   applicable.
Configuration and Change Control
CM Repository                      The FDIC has standardized the use of StarTeam and Endevor as the tools for
                                   managing the CM library. The CQMS [configuration and quality
                                   management staff] Team and the Infrastructure Services Branch are
                                   responsible for performing nightly backups, providing for disaster recovery
                                   and the general maintenance of the CM repositories.

                                   Describe any custom folders and discuss any custom security in place.
View and Branch Management         Describe the configuration to use multiple branches to segregate work,
                                   parallel development, introduction of code from external parties, or
                                   providing a gate between development and Development Integration.
Project Baselines                  A baseline is a “snapshot” in time of one version of each artifact in the
                                   project repository. A baseline is the official standard on which subsequent
                                   work is based and to which authorized changes are made. The three main
                                   reasons for creating baselines are reproducibility, traceability, and reporting.
                                   Baselines also play a role in determining when an artifact needs to come
                                   under formal configuration and change control.
Document Processing and Approval   Documents that have a review level of either Formal – External or Formal –
                                   Internal require a review cycle and a documented review record.
Change Request Processing and      The application will follow the Change Request processes and procedures in
Approval                           StarTeam. Describe any variation of the process by which problems and
                                   changes are submitted, reviewed, and dispositioned.
Change Control Board               Describes the membership and procedures for processing change requests.
Release Process                    Describe what is in the release, who it is for, and whether there are any
                                   known problems, and installation instructions.




                                                   18
                                                                                             APPENDIX IV

Status Accounting
Reports                             Describe the content, format, and purpose of the requested reports and
                                    configuration audits. Reports are used to assess the “quality of the product”
                                    at any given time of the project or product life cycle. Reporting on defects
                                    based on change requests may provide some useful quality indicators and
                                    thereby alert management and developers to particularly critical areas of
                                    development.
Configuration Evaluations           Configuration evaluations are conducted to confirm that SCM activities and
                                    processes performed for an application are in compliance with FDIC
                                    standards and the resulting baselines and documentation are accurate.

Physical Configuration Audit        At the end of each iteration, the Project Manager or their representative will
                                    conduct a physical configuration audit to confirm that:
                                         • the change requests targeted for the iteration deployment are
                                             documented properly,
                                         • the artifacts changed against those CRs [change requests] are linked
                                             and that all appropriate artifacts are correctly labeled,
                                         • and the artifacts specified in the Development Case are either
                                             created, revised, or finalized.

                                    Describe any additional audits that will be conducted for the application.
                                    Reasons for doing so may involve regulatory requirements.
Functional Configuration Audit      Describes audit procedures to confirm that a baseline meets the requirements
                                    targeted for the baseline.
Milestones                          Identify the internal and customer milestones related to the project or
                                    product CM effort. This section should include details on when the CM
                                    Plan itself is to be updated.
Subcontractor and Vendor Software   Describe how software from outside of application environment will be
Control                             incorporated and reference any third party CM plans.




                                                    19
                       Appendix V



CORPORATION COMMENTS
     APPENDIX V




21
Appendix V
     APPENDIX V




23
                                                                                                                                                APPENDIX VI

                                                MANAGEMENT RESPONSE TO RECOMMENDATIONS
     This table presents the management response on the recommendations in our report and the status of the recommendations as of the
     date of report issuance.

                                                                                                                                                           Open
      Rec.                                                                     Expected            Monetary      Resolved:a      Dispositioned:b            or
     Number         Corrective Action: Taken or Planned/Status              Completion Date        Benefits      Yes or No         Yes or No              Closedc
                   The security plan has been updated to correct            October 14, 2005         N/A            Yes               No                   Open
           1       the deficiencies identified during the audit.
                   Approval of updated security plan is needed.
                   The SCM Plan has been drafted, and the                   October 14, 2005          N/A            Yes                No                 Open
           2       appropriate StarTeam capabilities will be
24




                   implemented. Approval of the SCM Plan and
                   StarTeam implementation is pending.
                   The roles, responsibilities, and procedures for          October 14, 2005          N/A            Yes                No                 Open
           3       reviewing user access accounts are included in
                   the updated security plan. Approval of the
                   updated security plan is needed.
     a
         Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                   (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                   (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                       as management provides an amount.
     b
       Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
     through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
     recommendation.
     c
         Once the OIG dispositions the recommendation, it can then be closed.
